HHS/OIG, Audit - "Safeguards Over Controlled Substances at Anadarko
Indian Health Center," (A-06-06-00034)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Safeguards Over Controlled Substances at Anadarko
Indian Health Center," (A-06-06-00034)
April 11, 2007
Complete Text of Report is available in PDF format (560 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Anadarko Indian Health Center (Anadarko) complied with applicable requirements to secure and account for its Schedule II substances.
Anadarko did not always comply with applicable requirements to secure, or have adequate internal controls over, Schedule II substances at its pharmacy. Anadarko appropriately accounted for the Schedule II substances in our review. However, inadequate security and internal controls over these substances made them vulnerable to theft and mismanagement.
We recommend that IHS direct Anadarko to enforce the security and internal controls detailed in our report.
IHS concurred with our findings and recommendations and stated that Anadarko had implemented, or was currently implementing, all recommended corrective actions.